Colorado Supreme Court
2 East 14th Avenue
Denver, CO 80203

DATE FILED: April 27, 2020
CASE NUMBER: 2019SC745

Certiorari to the Court of Appeals, 2016CA1311
District Court, Jefferson County, 2014CR572
Petitioner:
Nathan D. Knuth,

Supreme Court Case No:
2019SC745

v.
Respondent:
The People of the State of Colorado.
ORDER OF COURT

Upon consideration of the Petition for Writ of Certiorari to the Colorado
Court of Appeals and after review of the record, briefs, and the judgment of said
Court of Appeals,
IT IS ORDERED that said Petition for Writ of Certiorari shall be, and the
same hereby is, DENIED.

BY THE COURT, EN BANC, APRIL 27, 2020.

2-

I

16CA1311 Peo v Knuth 08-22-2019
COLORADO COURT OF APPEALS

DATE FILED: August 22, 2019
CASE NUMBER: 2016CA1311

Court of Appeals No. 16CA1311
Jefferson County District Court No. 14CR572
Honorable Randall C. Arp, Judge
The People of the State of Colorado,
Plaintiff-Appellee,
v.
Nathan Daniel Knuth,
Defendant-Appellant.

JUDGMENT AND SENTENCE AFFIRMED
Division V
Opinion by JUDGE RICHMAN
Harris and Tow, JJ., concur
NOT PUBLISHED PURSUANT TO C.A.R. 35(e)
Announced August 22, 2019
Philip J. Weiser, Attorney General, Brock J. Swanson, Senior Assistant
Attorney General, Denver, Colorado, for Plaintiff-Appellee
Suzan Trinh Almony, Alternate Defense Counsel, Broomfield, Colorado, for
Defendant-Appellant

3

1 1

Defendant, Nathan Daniel Knuth, appeals the judgment of

conviction entered upon jury verdicts finding him guilty of second
degree assault, menacing with a deadly weapon, second degree
kidnapping, false imprisonment, criminal mischief, driving while
ability impaired, third degree assault, and violation of a protection
order. He also appeals his adjudication and sentence as a habitual
criminal. We affirm the conviction and sentence.
I. Background
If 2

All of the charges in this case arose from a series of events

beginning with an alcohol-fueled celebration of defendant’s
birthday. Defendant and the primary victim were attempting to
reconcile a long-term on-and-off relationship. The pair share two
children, ages eleven and one.
If 3

According to the prosecution’s evidence, and as relevant to the

guilty verdicts in this case,1 defendant and the victim consumed

1 Defendant was found not guilty of (1) criminal mischief and
obstruction of telephone service for allegedly breaking the victim’s
phone, (2) second degree assault for conduct toward the victim just
after arriving at her house from the bar; (3) reckless driving for
allegedly driving his truck dangerously near to bar patrons in the
bar s parking lot; and (4) cruelty to animals for allegedly punching
the victim’s dog in the face. We do not discuss the evidence for
these charges.
1

drinks at two locations before proceeding to a bar near the victim’s
house. There, defendant consumed more drinks, and he became
angry. He punched the glass door of the bar, breaking it. Though
he was intoxicated, he drove his truck from the bar parking lot to
the victim’s house. The record is unclear regarding what happened
immediately after, while defendant and his friend were at the house
with the victim, but certain things are clear. A dog crate some
glass items, and the victim’s phone were broken; a pot was dented;
and the victim sought refuge back at the bar.
14

After a time, the victim left the bar and ultimately decided that

because the lights were out at her house, it was safe to return. She
entered and went upstairs to her bedroom. Defendant was
standing in the bedroom, waiting for her. As soon as she saw him,
she tried to run. He caught her by the hair, dragged her downstairs
to the front door, and said, “I’m going to bury you.” She resisted,
and he then dragged her back upstairs to the bedroom by the hair
and threw her on the bed.2 One of the victim’s dogs attempted to

2 Defendant is six feet three inches tall, and the victim is five feet
three inches.
2

5

intervene, and defendant put him out of the room and closed the
door.
'

1 5

The victim tried to escape the room when defendant put the

dog out, but defendant threw her on the bed and got on top of her,
saying, “You’re not going anywhere. You’re going to die. I hate
you.” After he appeared to doze off, the victim tried to slide out
from under him, but he bit her upper arm, held her by his teeth,
and pulled her back by her pant loops. He choked her until she
lost consciousness. She woke to him saying, “Come on, baby, wake
up, wake up.” Before she managed to escape, defendant choked the
victim a total of three times. She lost consciousness twice. As she
struggled against him, defendant bit the victim’s hands, once
removing “all the skin” on her knuckle, and he punched her in the
face and in the back of the head. He said, “I’m going to kill you”
and “I’m not going to jail for nobody.”
16

Eventually, defendant fell asleep, and the victim was able to

get away. She rounded up her dogs, put them in her car, and drove
to a nearby neighbor’s house. She told her neighbor what had
happened, and they called the police. Defendant was arrested that

3

morning, and a mandatory protection order prohibiting all contact
with the victim was issued two days later.
17

Defendant was initially charged with second degree assault,

menacing with a deadly weapon, second degree kidnapping, false
imprisonment, criminal mischief, and third degree assault. He
pleaded not guilty on July 7, 2014. Defendant moved to continue
his trial twice before he moved to plead not guilty by reason of
insanity (NGRI) on April 27, 2015. The trial court entered the NGRI
plea and ordered a psychological evaluation. The evaluation
concluded that defendant was legally sane at the time of the
incidents in question; it was filed with the court on January 14,
2016.
18

Defendant decided to represent himself, with advisory counsel,

after his fourth counsel of record3 did not want to proceed with an

3 Defendant’s initial retained counsel moved to withdraw for a
conflict, citing only the Colorado Rules of Professional Conduct. His
first public defender was released from representation after
defendant moved to dismiss the public defender’s office and a court
found a conflict due to a complete breakdown of communication.
His alternate defense counsel was released because defendant
moved to substitute counsel with retained counsel. Defendant
moved for substitution of his second retained counsel after counsel
told the court he would not be proceeding under the affirmative
defense of NGRI.
4

NGRI defense. At trial, the victim testified to the facts recounted
above. Her testimony was corroborated by a bouncer at the bar,
her neighbor, multiple police officers and investigators, a doctor,
audio recordings of defendant’s calls from jail, and photographic
evidence of her injuries. Defendant simply argued that the
prosecution had not met its burden of proof. The jury found
defendant guilty of nine charges.
19

The trial court found that defendant was a habitual criminal,

and it sentenced him to a cumulative term of thirty-two years in the
custody of the Department of the Corrections (DOC) — four times
the maximum of the presumptive range for second degree assault.
11 io

On appeal, defendant contends that (1) there was insufficient

evidence to support his conviction for second degree kidnapping; (2)
the second degree assault statute is unconstitutional; (3) the trial
court erroneously denied his motion for a mistrial after evidence of
his prior incarceration was introduced; (4) his statutory and
constitutional rights to a speedy trial were violated; (5) his right to a
speedy trial under the Uniform Mandatory Disposition of Detainers
Act (UMDDA) was violated; and (6) there was insufficient evidence
that he committed the predicate crimes to support his adjudication
5

and sentencing as a habitual criminal. We address and reject each
contention in turn.
II. Sufficient Evidence of Second Degree Kidnapping
1 11.

Defendant first asserts that there was insufficient evidence for

the asportation element of second degree kidnapping, because the
victim was moved only from the hallway outside her bedroom to
inside her bedroom, an insubstantial distance, and that the
movement did not substantially increase her risk of harm. We
disagree.
A. Standard of Review and Applicable Law
11 12

Evidence is sufficient to support a conviction if the direct and

circumstantial evidence, viewed as a whole and in the light most
favorable to the prosecution, could support a rational trier of fact’s
conclusion that the defendant is guilty of the offense beyond a
reasonable doubt. Clark v. People, 232 P.3d 1287, 1291-92 (Colo.
2010). We give the prosecution the benefit of every reasonable
inference which may fairly be drawn from the evidence, and we do
not consider vague, speculative, or imaginary doubt to be
reasonable doubt. Id. at 1292. We review the record de novo to
make this determination. Id. at 1291.
6

11 13

Section 18-3-302(1), C.R.S. 2018, provides that second degree

kidnapping occurs when a person “knowingly seizes and carries any
person from one place to another.” Colorado courts have
interpreted the asportation element to mean that the defendant
“moved the victim from one place to another.” People v. Harlan, 8
P.3d 448, 476-77 (Colo. 2000), overruled on other grounds by People
v. Miller, 113 P.3d 743 (Colo. 2005). Substantial movement of the
victim is not required. People v. Fuller, 791 P.2d 702, 706 (Colo.
1990). Where the movement was insubstantial or doubtful, “[t]he
prosecution must establish that the victim was moved and that the
movement substantially increased the risk of harm to the victim.”
Id.; see People v. Bondsteel, 2015 COA 165, J 95, affd, 2019 CO
26.
B. Application
II 14

Defendant argues that his movement of the victim from the

hallway to the bedroom was insubstantial, and that the movement
did not substantially increase her risk of harm. The People argue
that the movement was not insubstantial or doubtful, and that we
need not discuss whether the movement increased her risk of harm.
We need not resolve whether the movement was substantial,
7

10

because we conclude that a rational trier of fact, viewing the
evidence in the light most favorable to the prosecution, could find
that defendant’s movement of the victim from the hallway to the
front door and back to the bedroom substantially increased her risk
of harm.
1 15

The victim was at a lower risk of harm when she was

proximate to her front door, where she may have alerted a passerby
to her distress or escaped at ground level, than she was in her
bedroom. See People v. Owens, 97 P.3d 227, 236 (Colo. App. 2004)
(collecting cases; holding that victims taken from the entrance of a
restaurant to a back office “where they were threatened with death
and where they were no longer visible to members of the public”
were subjected to a substantially increased risk of harm); see also
People v. Rogers, 220 P.3d 931, 936 (Colo. App. 2008) (holding that
movement to a place from which it was more difficult to escape
substantially increased the victim’s risk of harm).
1 16

Even when viewing the evidence as characterized by

defendant, interpreting his movement of the victim as only from the
hallway to the bedroom, a reasonable juror could find that this
movement substantially increased her risk of harm because the
)

8

l

bedroom door enabled defendant to exclude the victim’s dogs, a
Labrador-pit bull mix and a Great Dane, from the room.
1 17

We are not persuaded that this case is like People v. Bell, 809

P.2d 1026, 1033 (Colo. App. 1990), where a division of this court
concluded that movement of a victim from his living room to his
bedroom, where he was left alone with a telephone and confined for
only a few minutes, did not increase his risk of harm. The victim
here was never left alone; her phone had been broken; and though
the duration of her confinement is unclear, she was certainly
trapped in the bedroom for more than a few minutes. We conclude
that the evidence in this case, taken in the light most favorable to
the People, supports a conviction of second degree kidnapping. See
Bondsteel, f 98 (“[Tjhese cases are fact specific.”).
III. Second Degree Assault Statute Constitutional
1 18

Next, defendant contends that section 18-3-203, C.R.S. 2018,

is unconstitutional and violates his right to equal protection
because there is no rational basis for punishing a defendant who
intentionally causes bodily injury with a deadly weapon — under
subsection (l)(b) — to the same extent as a defendant who
intentionally causes serious bodily injury without a deadly weapon,
9

a

under subsection (l)(g), because the latter crime is more serious.
He argues that the statute is unconstitutional on its face and as
applied to him. We are not persuaded.
A. Standard of Review and Applicable Law
1 19

We review the constitutionality of statutes de novo. People v.

Lente, 2017 CO 74, 1f 10. We presume that statutes are
constitutional, and a party asserting otherwise bears the burden of
proving that claim beyond a reasonable doubt. People v. Helms,
2016 COA 90, H 15.
120

Statutory classifications of crimes comport with equal

protection guarantees if they are “based on differences that are real
in fact and reasonably related to the purposes of the legislative
enactments.” People v. Nardine, 2016 COA 85, If 31 (quoting People
v. Wilhelm, 676 P.2d 702, 704 (Colo. 1984)). When two different
statutes proscribe the same criminal conduct with different criminal
sanctions, it violates equal protection, see People v. Stewart, 55
P.3d 107, 115 (Colo. 2002), but “fhjarsher penalties for crimes
committed under different circumstances than those which
accompany the commission of other crimes do not violate equal
protection guarantees if the classification is rationally based upon
10

13

the variety of evil proscribed,” People v. Montoya, 196 Colo. Ill
113, 582 P.2d 673, 675 (1978).
B. Analysis
121

As an initial matter, none of the cases cited by defendant, and

none that we are aware of, suggest that the constitutional right of
equal protection is violated when arguably “less serious” conduct
incurs the same penalty as arguably “more serious conduct.”
Rather, equal protection “assures that those who are similarly
situated will be afforded like treatment.” People v. Slaughter, 2019
COA 27, U 11. A defendant charged with second degree assault
under subsection (l)(b) is similarly situated to a defendant charged
under subsection (l)(g). Cf. People v. Suazo, 867 P.2d 161, 164
(Colo. App. 1993) (applying a non-traditional equal protection
analysis regarding the penalties implicated by different offenses,
where the “persons charged under them are not ‘similarly
situated”’).
1 22

Facially, section 18-3-203(l)(b) and (1)(g) describe two courses

of conduct which may incur the same penalty. The statute provides
a rational basis for this — a defendant who intentionally causes
non-serious bodily injury with his hands is subject to the same
ill
ii

n

penalty as one who intentionally causes serious bodily injury with
his hands only when the former uses his hands as a deadly
weapon. A deadly weapon may accidentally cause serious bodily
injury or death

an outcome the General Assembly may rationally

seek to avoid — even when the wielder of the weapon intends to
cause only non-serious bodily injury. “The General Assembly may .
. . prescribe more severe penalties for acts it perceives to have
graver social consequences, even if the differences are only a matter
of degree.” People v. Jefferson, 748 P.2d 1223, 1226 (Colo. 1988).
If 23

“Objects which are not inherently deadly, such as . . . hands,

can become deadly weapons when used to start an unbroken,
foreseeable chain of events capable of producing serious bodily
injury or death.” People v. Saleh, 45 P.3d 1272, 1276 (Colo. 2002).
Section 18-1-901 (l)(e)(II), C.R.S. 2018, dictates that hands can be a
“[djeadly weapon” when they, in the manner they are used , are
“capable of producing death or serious bodily injury.” Because
defendant used his hands in such a manner, twice strangling the
victim to the point of unconsciousness, the second degree assault
statute is constitutional as applied to him. Only a small amount of

12

IS

time separates bodily injury and serious bodily injury or death
when hands are used for strangulation.
^ 24

Defendant is wrong that published Colorado case law

considers hands to be deadly weapons only when hands cause a
victim to actually suffer death or serious bodily injury. In People v.
Castro, 10 P.3d 700, 703 (Colo. App. 2000), a division of this court,
citing section 18-1-90l(l)(e), found that the “jury should be
instructed on the issue of whether the victim’s fists could be
considered a deadly weapon in the context of self-defense” for a
murder charge. And in Slaughter, a division of this court discussed
at length the fact that, in the abstract, strangulation causing bodily
injury may be charged as second degree assault based on the use of
hands as a deadly weapon. See, e.g., || 3, 48; see also
§ 18-3-203(l)(b).
1125

We conclude that defendant has not met his burden of proving

beyond a reasonable doubt that the second degree assault statute is
unconstitutional.
IV. Evidence of Prior Incarceration Did Not Necessitate Mistrial
126

At trial, the prosecution played an audio recording of a phone

call between defendant and the victim that took place the day after
13

14

the assault. In the recording, the victim says that she did not want
defendant to go back to prison. Defendant objected and requested a
mistrial, arguing that he was prejudiced because the recording
revealed a prior incarceration. He ultimately declined the trial
court’s offer of a jury instruction to disregard, concluding that it
would “create more damage.”
A. Standard of Review and Applicable Law
127

We review a trial court’s decision to deny a mistrial for an

abuse of discretion and will not disturb its ruling absent an abuse
of discretion and prejudice to the defendant. See People v. Santana,
255 P.3d 1126, 1130 (Colo. 2011). An abuse of discretion occurs
when a trial court’s ruling is manifestly arbitrary, unreasonable, or
unfair, or contrary to law. People v. Relaford, 2016 COA 99, 1 25.
128

A “trial court is in a better position to evaluate any adverse

effect of improper statements or testimony on a jury, [so] it has
considerable discretion to determine whether a mistrial is
warranted.” People v. Tillery, 231 P.3d 36, 43 (Colo. App. 2009),
affd sub nom. People v. Simon, 266 P.3d 1099 (Colo. 2011).
Because it is “the most drastic of remedies,” a mistrial is “only
warranted where the prejudice to the accused is too substantial to
14

11

be remedied by other means.” People u. Abbott, 690 P.2d 1263,
1269 (Colo. 1984).
B. Application
129

Defendant reviewed the recordings prior to publication, and he

did not raise the issue of a reference to his prior incarceration.
During publication of the recording to the jury, the trial court
“didn’t catch” that the victim said “back to prison.” (Emphasis
added.) Not only was the mention brief, and easy to miss, but
evidence of defendant’s prior criminality was introduced on multiple
other occasions during trial. Defendant introduced evidence of a
text message from the victim saying “that’s all you’ll ever be”
accompanying a photo of him in jail clothing, and two law
enforcement witnesses testified that they had responded to prior
domestic disturbances caused by defendant in 2007 and 2008.
130

For these reasons, in addition to the overwhelming evidence of

defendant’s guilt of the crimes against the victim, we conclude that
any prejudice to defendant was negligible, and we perceive no abuse
of discretion in the trial court’s denial of defendant’s motion for a
mistrial. See People v. Everett, 250 P.3d 649, 663 (Colo. App. 2010).
V. Defendant Received a Legally Speedy Trial
15

I?

131

Just over twenty-one months passed between defendant’s

entry of a not guilty plea and his trial. Defendant argues that this
passage of time violated his statutory and constitutional rights to a
speedy trial and caused the trial court to lose jurisdiction for failure
to comply with the time limits of the UMDDA. We perceive no merit
to this argument.
1 32

We conclude that because every continuance was granted for

the benefit of the defendant and with his agreement that he was
waiving or tolling his right to a speedy trial, the resulting delays did
not implicate his speedy trial rights.4 We summarize the relevant
dates and events as follows:
• March 1, 2014: defendant was arrested.
• July 7, 2014: the trial court accepted defendant’s not
„ guilty plea through his first appointed counsel, in
defendant’s presence.

4 In addition to the events referenced in the body of this opinion,
defendant’s effort to delay trial is illustrated by his filing of
countless pro se motions, at least “eight to ten inches thick,” in
addition to numerous motions filed by his multiple attorneys
pending trial.
16

I?

• September 18, 2014: the trial court denied defendant’s
motion to dismiss appointed counsel and set trial for
December 15, 2014.
• December 10, 2014: defendant moved to continue trial to
conduct additional investigation and to subpoena a
witness. Defendant expressly waived his right to speedy
trial, and trial was re-set for March 23, 2015.
• February 18, 2015: the trial court granted defendant’s
motion for replacement counsel with defendant’s
understanding that his trial may be continued as a
result, and the court tolled his right to a speedy trial.
Defendant first mentions, to a different judge in a sealed
proceeding, his desire to enter a NGRI plea.
• March 2, 2015: newly appointed Alternate Defense
Counsel (ADC) moved to continue the trial because he
could not do the trial on March 23, and the trial court
found that speedy trial would begin to run anew.
• March 10, 2015: defendant filed a pro se motion (UMDDA
motion) requesting final disposition of his case within
182 days pursuant to the UMDDA.
20
17

• April 3, 2015: defendant requested a hearing regarding a
conflict requiring removal of ADC. The trial court found
no such conflict and no legal basis for an NGRI plea; it
set trial for July 13, 2015.
• April 13, 2015: defendant moved to substitute counsel.
• April 27, 2015: defendant moved for the court to accept
an NGRI plea through his second retained counsel.
• May 8, 2015: defendant first asserted his fight to a
speedy trial.
• May 26, 2015: the trial court accepted defendant’s NGRI
plea, finding that defendant had “always wanted to enter
such a plea”; it ordered a psychological evaluation after
defendant expressed his understanding that he would be
delaying trial “by as long as seven months.”
• June 8, 2015: defendant asked that the UMDDA motion
“be tolled pending the [NGRI] evaluation.”
• January 14, 2016: the completed sanity evaluation was
filed, concluding that defendant did not have a
“qualifying mental disease of condition” and that he
maintained the ability to distinguish right from wrong
18

nX

and form the culpable mental state” on the date of the
crime.
• February 1, 2016: defense counsel told the trial court
that defendant would not be proceeding with NGRI;
defendant moved to remove his second retained counsel
and for the trial court’s recusal.
• February 25, 2016: the chief judge of the district court
found no basis for recusal of the trial judge and set trial
for April 12, 2016.
• March 17, 2016: defendant fired his second retained
counsel, declined the court’s offer to appoint ADC, and
refused to waive his speedy trial rights. He would
proceed pro se, with advisory counsel.
• March 28, 2016: trial was re-set to April 18, 2016 per
defendant’s request for more time without waiving his
right to speedy trial.
• April 18, 2016: trial began.
A. Statutory Speedy Trial
1 33

The speedy trial statute entitles a defendant to dismissal of the

charges against him if he is not brought to trial within six months
19

of entering a not guilty plea, unless the delay qualifies for an
exclusion from the speedy trial calculation set forth in the statute.
§ 18-1-405, C.R.S. 2018, see Mosley v. People, 2017 CO 20, f 17.
U 34

“[Sjubsection (1) establishes the criminal defendant’s basic

statutory right to a speedy trial and the remedy for violation of that
right,” while “the other subsections of the statute, in turn,
implement or clarify that basic right.” Mosley, 1 29. Subsections
(6)(f) and (6)(a), respectively, clarify that “[t]he period of any delay
caused at the instance of the defendant” and “[a]ny period during
which the defendant... is under observation or examination
after the issue of the defendant’s . . . insanity ... is raised” shall be
excluded. § 18-1-405(6)(a), (f).
1 35

Defendant concedes that his speedy trial calculation began

anew when he moved to continue trial on March 2, 2015. He
further agreed to toll his speedy trial and UMDDA calculation
during his NGRI evaluation, and trial began on April 18, 2016.
Four hundred and fourteen days passed from March 2, 2015, to
April 18, 2016. The psychological evaluation, ordered on May 26,
2015, and filed on January 14, 2016, took 234 days. After tolling,

a
20

defendant’s trial began 180 days after his March 2, 2015, motion to
continue, which is within six months.
136

We disagree that the speedy trial calculation should begin on

July 7, 2014, based on defendant’s argument that, when
defendant’s first appointed counsel entered a not guilty plea,
defendant allegedly wished to enter a NGRI plea. Defendant
provides no legal support for such a conclusion, and we are not
aware of any. Moreover, even if defendant had entered an NGRI at
the outset, his speedy trial calculation would have begun anew, as
calculated above, when he moved for continuances for his public
defender and ADC to further prepare for trial. See § 18-1-405(6) (f).
11 37

We need not address defendant’s argument that the district

court should have accepted his NGRI plea on April 3, 2015, because
any delay caused by the court’s acceptance on the plea on May 26,
2015, was not counted against him.
138

Defendant’s statutory right to a speedy trial was not violated.
B. Constitutional Speedy Trial

139

In determining whether a delay in bringing a defendant to trial

violates his constitutional rights, the court balances (1) the length
of the delay; (2) the reason for the delay; (3) the defendant’s
21

28

assertion of his rights; and (4) the prejudice to the defendant.
Barker v. Wingo, 407 U.S. 514, 531 (1972); People v. Brewster, 240
P.3d 291, 299 (Colo. App. 2009). The defendant has the burden of
demonstrating that his constitutional right to a speedy trial was
violated. People v. Chavez, 779 P.2d 375, 376 (Colo. 1989).
1 40

The constitutional right to a speedy trial attaches when a

defendant is arrested or formally charged, whichever comes first.
United States v. Seltzer, 595 F.3d 1170, 1176 (10th Cir. 2010);
Chavez, 779 P.2d at 376. Delays longer than one year are generally
presumptively prejudicial and require the court to examine the
remaining three factors set forth under Barker. See Doggett v.
United States, 505 U.S. 647, 652 n.l (1992). The initial
presumption of prejudice intensifies as more time elapses. Id. at
652.
141

However, no single factor is indispensable to a finding that the

defendant’s speedy trial right was denied, nor is any factor
sufficient for such a finding. Rather, each factor is interrelated with
the others and should be considered along with the circumstances
of the case. People v. Glaser, 250 P.3d 632, 635 (Colo. App. 2010).

22

OS

142

There was a twenty-five-month delay from when defendant

was arrested on March 1, 2014, to the start of trial on April 18,
2016. Although this delay is presumptively prejudicial, the
remaining three Barker factors do not support finding a
constitutional speedy trial violation. See Doggett, 505 U.S. at 652
n. 1; see also Glaser, 250 P.3d at 644 (A presumptively prejudicial
delay “only opens the door for analysis of the remaining Barker
factors; it does not shift the ultimate burden of proof.”).
143

More than fifteen months of the pretrial delay is attributable to

defendant. We conclude that fourteen months resulted directly
from defendant’s requests to continue, his request for an NGRI
evaluation, and his request to remove the trial judge. More than
thirteen months passed between December 10, 2014, when he first
requested a continuance, and January 14, 2016, when his
psychological evaluation was filed with the court; twenty-four days
are attributable to the defendant for the hearing on his motion to
remove the trial judge; and defendant’s last request for a
continuance consumed six days. An additional forty-one days may
be charged to defendant for the time period between his first
retained counsel’s withdrawal and his arraignment with a public

qJo
23

defender. See Glaser, 250 P.3d at 635 (delay caused by a
defendant’s counsel is attributable to the defendant under the
second Barker factor). We do not accept defendant’s argument that
any delay is attributable to the trial court’s failure to accept an
NGRI plea that was not offered on July 7, 2014.
144

Defendant did not promptly demand a speedy trial. He

asserted his speedy trial rights for the first time on May 8, 2015 —
more than fourteen months after his arrest and less than three
weeks before he entered an NGRI plea requiring substantial
additional delay. See People v. Small, 631 P.2d 148, 156 (Colo.
1981) (“A defendant’s delay in asserting his right to a speedy trial is
a significant factor to weigh in determining whether he was denied
his constitutional right to a speedy trial.”).
145

And finally, we are not persuaded by defendant’s allegation

that the unavailability of his deceased stepfather was prejudicial.
Defendant does not allege that his stepfather was present during
any of the charged events, and the evidence presented at trial
overwhelmingly demonstrated his guilt.
146

In sum, we conclude that defendant has not met his burden of

proving that his constitutional right to a speedy trial was violated.
24
i

C. UMDDA
147

Section 16-14-104(1), C.R.S. 2018, provides that a prisoner

must be brought to trial within 182 days after the receipt of a
request, “or within such additional time as the court for good cause
shown in open court may grant.” It also provides that “the parties
may stipulate for a continuance.” Id. Section 16-14-104(2)
additionally provides that if a prisoner makes a waiver, “the time for
trial of the indictment, information, or criminal complaint shall be
extended as provided in section 18-1-405(4), C.R.S., concerning
waiver of the right to speedy trial.”
148

The parties agree that defendant was in custody of the DOC

for purposes of the UMDDA, because while he was in county jail on
unrelated charges, he was also on parole for a previous offense. See
People v. Gess, 250 P.3d 734, 736 (Colo. App. 2010). We do not
need to decide if the UMDDA applied here, but even if it does , we
conclude that defendant’s rights under it were not violated.
149

Defendant first filed a UMDDA request for final disposition of

his case within 182 days on March 10, 2015. Defendant was tried
405 days after his request. Two hundred and thirty-four days were
tolled for the NGRI evaluation, with defendant’s express agreement
25

on the record that the UMDDA motion be tolled pending the
evaluation, and six days were tolled for the parties’ stipulated
continuance for defendant to prepare to proceed pro se at trial. See
People v. Fleming, 900 P.2d 19, 23 (Colo. 1995) (“[I]f a continuance
is granted for good cause, the [UMDDA] period is effectively tolled
for the length of the continuance.”); see also Gess, 250 P.3d at
737-38 (trial delays for substitution of counsel and for pro se
preparation toll the UMDDA deadline).
1 50

Subtracting the days properly tolled under the UMDDA,

defendant was tried 165 days after his request.
VI. Habitual Criminal Adjudication
1 51

Defendant argues that the People presented insufficient

evidence to support his adjudication as a habitual criminal for two
reasons: (1) there was insufficient evidence of his identity as the
person convicted in the cases underlying the habitual criminal
counts because there were not fingerprint cards for every case; and
(2) an insufficient number of felony convictions supported the
adjudication because two of the four convictions did not arise from
separate and distinct episodes. We disagree.

0f\
26

152

The prosecution charged defendant with six habitual criminal

counts: two from Illinois and four from Colorado. Though the
evidence of felony convictions in Illinois indicated a Nathan Knuth
with the same birthdate as defendant, the trial court found the
evidence insufficient to establish beyond a reasonable doubt that
the felonies had been committed by defendant, and it did not
consider them for purposes of its habitual criminal findings.
153

Regarding the Colorado convictions, the trial court found

beyond a reasonable doubt that defendant had been previously
convicted “of four separate and distinct felonies in four separate
and distinct criminal episodes and prosecutions” for purposes of
sentencing under the habitual criminal statute. See § 18-1.3-801,
C.R.S. 2018. The felony convictions are represented by case
number 01CR0394 from Larimer County and case numbers
03CR3457, 07CR3010, and 08CR3161 from Jefferson County.
Regarding defendant’s identity for each conviction, the court relied
on the following pen pack evidence from the People:
• four mittimuses with felony convictions naming Nathan
Daniel Knuth, with the same birthdate and state
identification number as defendant;

2b
27

fingerprints taken at the jail after his arrest on the
charges in this case and testimony that the fingerprints
were taken from defendant;
fingerprint cards and pictures which the court found to
depict defendant at the DOC on April 8, 2005, a few days
after sentencing defendant in case number 03CR3457;
a mittimus showing that defendant’s original probation
sentence in 01CR394 was revoked shortly after his
sentence in 03CR3457 and that his 01CR394 sentence
was to run concurrent with his sentence in case
03CR3457;
fingerprint cards and pictures which the court found to
depict defendant at the DOC two days after sentencing
defendant in case numbers 07CR3010 and 08CR3161;
and
testimony that defendant’s fingerprints matched those on
the two fingerprint cards.
A. Law
1154

A challenge to the sufficiency of the evidence requires us to

determine whether the evidence, viewed in the light most favorable
28

3l

to the People, is sufficient to support a conclusion by the fact finder
that the defendant is guilty of the count charged beyond a
reasonable doubt. People v. Cooper, 104 P.3d 307, 310 (Colo. App.
2004).
1 55

In habitual criminal proceedings, the People must prove

beyond a reasonable doubt that the defendant is the person named
in the prior convictions. People v. Mascarenas, 666 P.2d 101, 110
(Colo. 1983). This burden requires more than proof that the
defendant shares the same name as the person previously
convicted, even if that name is unusual. Cooper, 104 P.3d at 312.
1 56

Section 18-1.3-80l(2)(a)(I) provides, as relevant here, that

“every person convicted in this state of any felony, who has been
three times previously convicted, upon charges separately brought
and tried, and arising out of separate and distinct criminal
episodes, ... of a felony . . . , shall be adjudged an habitual
criminal.”
B. Analysis
157

Defendant argues that the evidence is insufficient to prove his

identity for 01CR394 because no fingerprint card refers to that'
case, and fingerprints were taken four years after the charge.
29

3^

However, fingerprints are not the only way to prove identity. See
People v. Bemabei, 979 P.2d 26, 31 (Colo. App. 1998). From the
mittimuses, the trial court rationally concluded that defendant was
in continuous custody in the DOC between sentencing in
03CR3457 (with a photograph and fingerprint card) and
re-sentencing in 01CR394. The mittimus in the latter case refers to
a sentence concurrent with the former, and reflects the same name,
birth date, and state identification number — each identical to
defendant. Moreover, the photographs in the pen pack link the
person they depict to all of the other documents in the pen pack,
including the mittimuses for each felony conviction.
1 58

Viewed in the light most favorable to the People, the evidence

is sufficient to identify defendant, beyond a reasonable doubt, as
the felon convicted in 01CR394.
159

We need not address either of defendant’s arguments with

respect to 08CR3161, because we find sufficient evidence of
01CR394 and defendant does not challenge the sufficiency of the
evidence for 03CR3457 or 07CR3010. Only three prior felony
convictions are required to adjudicate defendant a habitual
criminal. See § 18-1.3-801(2)(a)(I). We conclude that the People’s
30

53

* *

exhibits contain sufficient evidence to sustain defendant’s
convictions on at least three habitual criminal counts and therefore
affirm his sentence as a habitual criminal.
VII. Conclusion
1 60

The judgment and sentence are affirmed.
JUDGE HARRIS and JUDGE TOW concur.

31

Additional material
from this filing is
available in the
Clerk's Office.

